JULY 14, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




IMPROVEMENTS NEEDED IN NASA’S OVERSIGHT AND
  MONITORING OF SMALL BUSINESS CONTRACTOR
TRANSFERS OF EXPORT-CONTROLLED TECHNOLOGIES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-018 (ASSIGNMENT NO. A-08-005-00)
Final report released by:



       /signed/ Debra Pettitt for
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

COTR         Contracting Officer Technical Representative
DDTC         Directorate of Defense Trade Controls
DoD          Department of Defense
DTSA         Defense Technology Security Administration
EAR          Export Administration Regulations
FAR          Federal Acquisition Regulation
GAGAS        Generally Accepted Government Auditing Standards
HQ           Headquarters
ITAR         International Traffic in Arms Regulations
NAICS        North American Industry Classification System
NFS          NASA Federal Acquisition Regulation (FAR) Supplement
NPR          NASA Procedural Requirements
SBIR         Small Business Innovation Research
STTR         Small Business Technology Transfer


                                                               REPORT NO. IG-09-018
JULY 14, 2009




                                                                             OVERVIEW

      IMPROVEMENTS NEEDED IN NASA’S OVERSIGHT AND
    MONITORING OF SMALL BUSINESS CONTRACTOR TRANSFERS
           OF EXPORT-CONTROLLED TECHNOLOGIES

                                                                              The Issue

   The United States has enacted strict controls over the export of certain defense-related
   goods and technical information and the technology associated with the design,
   manufacture, and use of those goods and technologies. Controls are needed for reasons
   of national security and foreign policy. Unauthorized disclosure of export-controlled
   technology could give a foreign country or adversary a military or economic advantage
   over the United States, and unauthorized disclosure of export-controlled technology to a
   foreign national is deemed an export to the foreign national’s home country by export
   regulations.

   Contractor compliance with U.S. export-control regulations is particularly relevant to
   NASA because a large percentage of the work to support NASA’s mission is done by
   contract to companies and universities. NASA FY 2008 procurement information shows
   that approximately 83 percent of NASA’s obligated appropriations was for contractor-
   provided products and services. While NASA is not directly responsible for a
   contractor’s compliance with export regulations, lack of compliance could put NASA’s
   mission in jeopardy because consequences of export-control violations could seriously
   impede a contractor’s ability to provide supplies or services to NASA.

   The Office of the Inspector General is required to report annually to Congress the extent
   to which NASA is carrying out its activities in compliance with Federal export-control
   laws. We systematically selected 13 active NASA contracts that were performed by
   10 contractors and had a high probability of involving critical technologies and technical
   information. Of the 10 contractors, 4 were large corporations, 2 were universities, and
   4 were small companies with either Small Business Innovation Research (SBIR) or Small
   Business Technology Transfer (STTR) contracts. Our objective was to evaluate whether
   NASA had maintained effective oversight and monitoring of contractor transfers of
   critical technologies and technical information to foreign nationals and countries of
   concern.




REPORT NO. IG-09-018
                                                                                                            OVERVIEW



     Results

     NASA could improve its oversight and monitoring of small business contractor transfers
     of critical technology and technical information to foreign nationals and countries of
     concern. Although the large corporations and universities we reviewed generally had
     adequate procedures to protect export-controlled technology from illegal transfer, the
     procedures at the small business contractors did not adequately protect export-controlled
     technology. Specifically, we found a lack of export-control awareness among small
     business contractors and NASA and small business procurement personnel. As a result,
     small business contractors are at increased risk of improperly releasing critical
     technology and technical information. Increased awareness of export regulations and
     improved oversight and monitoring of small business contractors’ compliance should
     enhance and reduce the attendant risks to NASA’s mission and national security.

     The large corporations’ and universities’ export-control programs included robust
     physical security such as double perimeter fence lines, barbed wire, and security officers;
     personnel security procedures such as swiping badges, badge verification, and logging in
     and escorting visitors; and information technology (IT), or logical, 1 security procedures
     to prevent unauthorized personnel from gaining access to critical and sensitive
     technologies. Each of the large corporations and universities had also established
     procedures to restrict foreign visitors’ access to sensitive or critical technologies.

     We identified procedural weaknesses at each of the four small business contractors’
     locations. Only one of the small business contractors employed foreign nationals; the
     other three had established a policy to only employ U.S. citizens, which significantly
     reduced their risk of disclosing export-controlled technology to foreign nationals and
     countries of concern. However, among the four contractors we found a lack of physical
     security procedures such as procedures for determining the nationality of visitors and for
     recording the presence of foreign visitors, lack of a physical security plan, and lack of
     restrictions to areas that contained potentially export-controlled technology. We
     determined that one small business contractor inappropriately provided at least two
     foreign national employees with access to export-controlled technology. We are
     coordinating with our Office of Investigations on this matter.

     NASA procurement personnel also were not always aware of export-control regulations.
     Although NASA is not directly responsible for a contractor’s compliance with export
     regulations, it is responsible for administration of the export-control program at NASA
     Centers and facilities. We determined that NASA procurement officials do not monitor
     exports as part of their contract administration duties and NASA’s export-control
     outreach efforts did not include small business procurement personnel.



     1
         IT, or “logical,” security procedures” refers to the collection of policies, procedures and electronic access
         controls designed to restrict access to computer software and data files.



ii                                                                                           REPORT No. IG-09-018
OVERVIEW



  Recently, the Department of Defense (DoD) developed a draft final rule to address DoD
  contractor compliance with export controls and to prevent unauthorized disclosure of
  export controlled information and technology. The draft final rule was developed in
  coordination with the Departments of State, Commerce, and Justice to remind contractors
  of their responsibility to comply with export control laws and regulations. The rule
  emphasizes the importance of registering with the State Department’s Directorate of
  Defense Trade Controls, which is charged with controlling the export and temporary
  import of defense articles and defense services, and directs contractors to contact either
  the Department of State or Department of Commerce regarding any questions related to
  either the International Traffic in Arms Regulations or Export Administration Regulation.
  NASA could improve both NASA contracting officers’ and small business contractor
  awareness of export regulations by monitoring export-control rule developments in other
  Federal agencies and amending the NASA FAR Supplement to align with those agency’s
  best practices.

                                                                Management Action

  We recommended that the Assistant Administrator for Procurement coordinate with the
  Department of State to monitor any modifications made to the DoD draft final rule
  intended to increase contractors’ awareness of their export-control responsibilities, and
  amend the NASA FAR Supplement accordingly. We also recommended that the NASA
  Assistant Administrator for Procurement improve NASA’s oversight and monitoring of
  contractors compliance with export-control regulations. Finally, we recommended that
  the Assistant Administrator for External Relations expand current export-control
  outreach efforts to NASA SBIR/STTR Program Management Office personnel,
  procurement personnel involved in the administration of SBIR/STTR contracts, and small
  business contractors.

  In response to a draft of this report, issued May 27, 2009, the Assistant Administrator for
  Procurement concurred with the recommendation to monitor modifications to the DoD
  draft final rule intended to increase contractor awareness of their export-control
  responsibilities and, if required, amend the NASA FAR Supplement. We consider
  management’s proposed actions to be responsive. The recommendation is resolved and
  will be closed upon completion and verification of management’s corrective action.

  The Assistant Administrator for Procurement partially concurred with our
  recommendation to require contracting officers to monitor and oversee contractors’
  compliance with export-control regulations. He agreed that contractors should be aware
  of and comply with export control regulations but noted that updating the solicitation
  requirements for small business contractors would be a more appropriate way to increase
  contractor awareness than requiring the delivery of an export control compliance plan or
  the reporting of major safety and security breaches and illegal technology transfers.
  Although management’s proposed actions are responsive to the intent of the
  recommendation, the effectiveness of those actions can only be measured by the extent to


REPORT NO. IG-09-018                                                                            iii
                                                                                     OVERVIEW



     which SBIR/STTR contractors comply with applicable export control regulations. The
     recommendation is resolved; however, it will remain open until we evaluate the
     effectiveness of the efforts to increase contractor awareness.

     The Assistant Administrator for External Relations concurred with the recommendation
     to expand current export-control outreach efforts to NASA personnel involved in the
     administration of SBIR/STTR contracts and to small business contractors. We consider
     management’s proposed actions to be responsive. The recommendation is resolved and
     will be closed upon completion and verification of management’s corrective action. (See
     Appendix B for the full text of management’s comments.)




iv                                                                       REPORT No. IG-09-018
JULY 14, 2009




                                                        CONTENTS

   INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 2

   RESULTS
      SBIR/STTR Procedures Do Not Adequately Protect Export-
        Controlled Technology _______________________________ 3

   APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls _____________________________ 16
      Prior Coverage _______________________________________ 17

   APPENDIX B
      Management Comments _______________________________ 18

   APPENDIX C
      Report Distribution ___________________________________ 21




REPORT NO. IG-09-018
JULY 14, 2009




                                                                                       INTRODUCTION

Background

   For reasons related to national security, foreign policy, antiterrorism, and
   nonproliferation of weapons of mass destruction, the United States controls the export of
   certain goods and technologies. The Department of State controls the export of Defense
   articles 2 and services, and the Department of Commerce controls the export of goods and
   technologies that have both commercial and military use (dual-use commodities). The
   Department of State, Office of Defense Trade Controls, implements the authority of the
   Arms Export-Control Act through the International Traffic in Arms Regulations (ITAR).
   The Department of Commerce, Bureau of Industry and Security, controls the export of
   dual-use commodities under the authority of the Export Administration Act and through
   implementing Export Administration Regulations (EAR).

   According to EAR, “export” means an actual shipment or transmission of items subject
   to EAR out of the United States or release of technology or software subject to EAR to a
   foreign national in the United States, and “technology” means specific information
   necessary for the “development,” “production,” or “use” of a product. ITAR defines
   “export” as sending or taking a defense article out of the United States, in any manner, or
   the disclosure or transfer of technical data to a foreign person, whether in the United
   States or abroad. The EAR at 15 CFR § 734.2(b)(2)(ii), notes that the release of export-
   controlled technology to a foreign national is deemed an export to the foreign national’s
   home country, commonly referred to as a “deemed export.” The deemed export rule
   applies to any foreign person except a foreign national who is granted (1) permanent
   U.S. residence, as demonstrated by the issuance of a permanent resident visa (i.e., Green
   Card); or (2) U.S. citizenship; or (3) status as a “protected person.” Deemed exports may
   involve the transfer of sensitive technology to foreign employees or visitors at
   U.S. companies, universities, or Federal research facilities.

   NASA’s programs and projects in many cases involve research and technology that must
   be protected because unauthorized disclosure could provide a foreign country or
   adversary a military or economic advantage. According to the Defense Security
   Service, 3 aeronautics, laser and optics, and space systems are 3 of the top 10 U.S.
   technologies most frequently targeted for theft by foreign entities. The two most
   common methods of collection by foreign entities are request for information and directly
   acquiring controlled technology. Other methods of collecting controlled information
   include covertly obtaining the information through foreign nationals working in or
   visiting U.S. companies, universities, research facilities, and other sources.

   2
       A defense article is any item or technical data designated in the United States Munitions List.
   3
       Defense Security Service, “Targeting U.S. Technologies: A Trend Analysis of Reporting from Defense
       Industry” (January 26, 2009).


REPORT NO. IG-09-018                                                                                        1
                                                                                  INTRODUCTION



    NASA is responsible for administration of the export-control program at its Centers and
    facilities. NASA’s export-control procedures are documented in NASA Procedural
    Requirements (NPR) 2190.1, “NASA Export-control Program - Revalidated w/changes,”
    February 1, 2007. This NPR outlines the Agency’s policies and procedures for ensuring
    compliance with Federal export-control laws established in EAR and ITAR. NPR 2190.1
    also documents the roles and responsibilities of NASA employees, support contractors,
    universities, and partners engaged in activities that involve the transfer of commodities,
    software, or technologies to foreign individuals or organizations.

    In general, it is the responsibility of the U.S. entity to apply for and obtain an export
    license from the Department of State or the Department of Commerce. While NASA is
    not directly responsible for a contractor’s compliance with export regulations, NASA’s
    ability to accomplish its mission could be jeopardized as a result of the consequences of
    noncompliance. For example, if a contractor releases export-controlled technology to a
    foreign country or individual without a license, if caught the company could be subject to
    civil and criminal penalties, which could delay or prevent delivery of goods or
    technologies NASA needs. Penalties for violations of ITAR can be severe and include
    imprisonment, monetary fines, and debarment from participating in the import or export
    of defense articles or services. NASA’s reliance on contractors’ compliance with export-
    control regulations is particularly relevant because contracts represent the majority of
    NASA’s budget. In FY 2008, NASA’s procurements totaled $16,785.4 million, which
    represented 82.7 percent of NASA’s obligated appropriations. Of the $16,785.4 million
    obligated, 73.7 percent went to business firms, 10.5 percent went to the Jet Propulsion
    Laboratory, and 6.5 percent went to educational institutions. The remaining 9.3 percent
    was divided among other Government agencies, nonprofit organizations, and companies
    outside the United States.


Objectives

    Our audit objective was to evaluate whether NASA had maintained effective oversight
    and monitoring of contractor transfers of critical technologies and technical information
    to foreign nationals and countries of concern. We reviewed internal controls as they
    related to the audit objective. See Appendix A for details of the audit’s scope and
    methodology, our review of internal controls, and a list of prior coverage.




2                                                                         REPORT NO. IG-09-018
RESULTS




                                              SBIR/STTR PROCEDURES DO
                                                NOT ADEQUATELY PROTECT
                                                    EXPORT-CONTROLLED
                                                           TECHNOLOGY

          We reviewed 13 contracts performed by 10 contractors: 4 large corporations,
          2 universities, and 4 small companies with either Small Business Innovation
          Research (SBIR) or Small Business Technology Transfer (STTR) contracts. The
          large corporations and universities we visited generally had adequate procedures in
          place to protect export-controlled technology. However, at each of the 4 small
          business contractors we reviewed, we identified weaknesses in their procedures to
          protect export-controlled technology. This occurred because the small business
          contractors and NASA procurement officials were not always aware of export-
          control regulations or that the contract performance involved export-controlled
          technology. In addition, NASA procurement officials were not overseeing or
          monitoring small business contractors for export-control compliance. As a result,
          small business contractors are at increased risk of improperly releasing critical
          technology and technical information to foreign nationals and countries of concern.


Export-Control Guidance

   The primary legislative authority for controlling the export of defense articles and
   services is the Arms Export-Control Act of 1976 (22 USC section 2751), implemented by
   the Department of State, Office of Defense Trade Controls through ITAR. The primary
   legislative authority for controlling the export of dual-use items is the Export
   Administration Act of 1979, as amended (50 USC appendix 2401), implemented by the
   Department of Commerce, Bureau of Industry and Security, under authority provided in
   EAR.

   The State Department’s Directorate of Defense Trade Controls (DDTC) is charged with
   controlling the export and temporary import of defense articles and defense services
   covered by the United States Munitions List, in accordance with ITAR. ITAR requires
   any person in the U.S. who engages in either the manufacture or export of defense
   articles to register with DDTC, even someone who engages in manufacturing or
   exporting defense articles on only one occasion. Registering with DDTC provides the
   Government necessary information on who is involved in certain manufacturing and
   exporting activities.

   DDTC’s compliance guidelines recommend that companies involved in manufacturing
   export-controlled goods implement a comprehensive operational export-control
   compliance program. According to DDTC, an export-control program should articulate



REPORT NO. IG-09-018                                                                            3
                                                                                                       RESULTS



    the company’s policy on and commitment to compliance with U.S. defense trade laws
    and regulations, outline the procedures for dealing with licensing and compliance
    matters, and provide employees with the knowledge to understand when and how ITAR
    affects the company’s controlled items and technical data. In addition, DDTC
    recommends that the plan contain a methodology to identify and account for all ITAR-
    controlled items, including technical data. The purpose of developing an export-control
    plan and providing export-control training is to reduce the risk of employees
    inadvertently releasing critical and sensitive technologies to foreign nationals.

    NASA Procedural Requirements (NPR) 2190.1, “NASA Export-Control Program -
    Revalidated w/changes,” February 1, 2007, outlines the roles and responsibilities for
    implementing NASA’s export-control program. Center Export Administrators are
    responsible for implementing and managing the export-control programs at NASA
    Centers and for (1) assisting procurement officials with export-control issues;
    (2) coordinating with Center Export Counsel, Transportation Officers, and
    Program/Project Managers on export-control matters affecting Center programs and
    activities; and (3) providing assistance in developing Technology Transfer Control Plans
    that define which NASA technologies or technical data require protection and what level
    of foreign access is permissible. NPR 2190.1 also details export-control requirements,
    instructions, and responsibilities for all NASA employees and contractors as well as
    universities and partners engaged in NASA activities that involve the transfer of
    commodities, software, or technologies to foreign individuals or organizations.

    The SBIR and STTR Programs provide an opportunity for small, high technology
    companies to participate in Government sponsored research and development efforts in
    key technology areas. NASA’s SBIR/STTR Program Management Office annually
    issues solicitations based on the technical needs of the Mission Directorates. Companies
    submit proposals to the SBIR/STTR Program Management Office detailing how they can
    provide NASA with the desired key technologies described in the solicitations. The
    SBIR/STTR Program Management Office provides the proposals to appropriate technical
    experts at various NASA Centers to evaluate the probability that the proposed technology
    will meet NASA’s needs. Based on the technical experts’ evaluations, the SBIR/STTR
    Program Management Office decides which companies it will award with a contract and
    which NASA Center is best suited to manage the contract based on the subject matter.
    The “requiring activity” in this process is the Mission Directorate that identified the
    technological need.


Contracts Selected for Review

    We queried the Federal Procurement Data System-Next Generation 4 for active NASA
    contracts that were not performed at a NASA Center. To identify contracts that

    4
        Federal Procurement Data System-Next Generation is the Federal Government’s central repository for
        capturing information on all Federal procurement actions.



4                                                                                     REPORT NO. IG-09-018
RESULTS



   potentially contained export-controlled technology relevant to NASA, we based our
   selection on the North American Industry Classification System (NAICS) codes 5
   identifying space vehicles, guided missiles, and related equipment and then
   systematically selected contracts with a total award value greater than $500,000.
   Selected contracts contained one of the following NAICS codes:

         • 336414       Guided Missile and Space Vehicle Manufacturing
         • 336415       Guided Missile and Space Vehicle Propulsion Unit and Propulsion Unit
                        Parts Manufacturing
         • 336419       Other Guided Missile and Space Vehicle Parts and Auxiliary Equipment
                        Manufacturing
         • 927110       Space Research and Technology
   We also focused only on contracts administered by Goddard, Marshall, and Kennedy
   based on both the number of contracts awarded and the award value of contracts. We
   reviewed ITAR, EAR, and NASA guidance and consulted with NASA export-control
   personnel and determined that 13 contracts contained technologies potentially subject to
   export controls.

   The services and products involved in performance of the contracts included developing
   instruments for use on spacecraft, launching space vehicles, developing optical sensors to
   detect leaks during launch operations, adapting special polymers for use on spacecraft
   and military body armor, developing launch range surveillance equipment, and
   developing cameras that track explosion debris. The 13 contracts were performed by
   10 contractors: 4 were large corporations, 2 were universities, and 4 were small business
   contractors.


Procedures for Protecting Export-Controlled Technology at
  Contractor Locations

   While the large corporations and universities we reviewed had adequate procedures in
   place to protect export-controlled technology, the procedures in place at each of the small
   business contractors did not adequately protect export-controlled technology from
   unauthorized disclosure.

   At each location, we reviewed procedures for controlling physical access and logical
   access and procedures for determining the nationality of employees and visitors. Where
   available, we also reviewed the contractor’s export-control program and obtained and

   5
       The Office of Management and Budget (OMB) developed the North American Industry Classification
       System (NAICS) as the standard for use by Federal statistical agencies in classifying business
       establishments for the collection, analysis, and publication of statistical data. (Source:
       http://www.naics.com/faq.htm#q1.)



REPORT NO. IG-09-018                                                                                    5
                                                                                           RESULTS



    reviewed the contractor’s applicable technical assistance agreements, DDTC registration
    number, and export licenses and exceptions.

    Procedures at Large Corporations and Universities. The four large corporations and
    two universities had physical and logical access controls in place to prevent unauthorized
    personnel from gaining access to critical and sensitive technologies. Although the
    security procedures varied by location, examples of security included access control
    badges, cipher locks, visitor sign-in logs and escorts, double perimeter fence lines, barbed
    wire, security officers, and logical access controls.

    Two of the large corporations employed only U.S. citizens and had procedures in place to
    identify and escort all foreign visitors on the premises. The remaining two large
    corporations and the two universities employed foreign personnel and had procedures to
    identify non-U.S. citizens and restrict their access to only those physical areas and
    computer systems that did not contain export-controlled technology. One of the large
    corporations established an “ITAR-free zone” within one building that was controlled by
    employee access-control badges. The non-U.S. citizens only had access to that area of
    the building and their computer access was restricted to a network that did not contain
    export-controlled technology. The remaining large corporation had developed an
    extensive technology transfer control plan, with assistance from the Defense Technology
    Security Administration (DTSA), that restricted the physical and logical access their
    non-U.S. employees had within the facility.

    Both of the universities we visited had established separate areas that contained the
    export-controlled technology related to the contracts we reviewed. Only U.S. citizens
    were allowed unrestricted access to these areas. Foreign visitors were required to be
    escorted by a U.S. citizen and were not allowed access to export-controlled technology.
    All the technical data related to the contracts we reviewed resided on computers that were
    not part of the university networks, and logical access was limited to only those people
    authorized. Each of the large corporations and universities had also obtained applicable
    export licenses and were aware of the requirement to register with the DDTC, indicating
    a thorough knowledge of export-control regulations.

    Procedures at Small Business Contractors. At each small business contractor we
    reviewed, we identified procedural weaknesses that increased their risk of violating
    export-control regulations. Three of the four contractors had not developed an export-
    control plan and did not provide export-control training to their employees. Two of the
    four contractors did not have physical security procedures adequate to protect export-
    controlled technology. As a result of the procedural weaknesses, we determined that at
    least one small business contractor inappropriately provided foreign national employees
    access to potentially export-controlled technology.

            Export-control plan. Small business contractors 1, 2, and 3 had not developed
    an export-control plan and did not provide export-control training to their employees. As
    a result, the export-control efforts at each of the three contractors focused on the physical


6                                                                           REPORT NO. IG-09-018
RESULTS



   shipment of goods and not the transfer of technical data to foreign nationals. Although
   contractors 2 and 3 were at a reduced risk of releasing technical data to foreign nationals
   because they employed only U.S. citizens, none of the three contractors appeared to
   understand the concept of deemed exports sufficiently to protect technical data from
   being released to foreign nationals. For example, when we explained deemed exports to
   the Chief Operating Officer for one of the contractors, the officer stated that their
   company was at risk of inadvertently releasing export-controlled technology because they
   do not review the technical information they presented at industry trade shows to market
   the company’s technical capabilities for any export-controlled data that might be
   included. A manager responsible for export-control compliance at another contractor
   stated that he did not know what a deemed export was and believed that an export only
   occurred when a good or product was shipped outside the United States.

           Physical security procedures. Contractor 1, who employed foreign nationals,
   had not developed a physical security plan, did not have procedures to identify the
   nationality of foreign visitors, and did not restrict access to any visitors. As a result,
   contractor 1 did not restrict the access their employees had to potentially export-
   controlled technology. The technical data associated with the contract we reviewed
   involved optical sensors to detect leaks during launch operations. We requested technical
   assistance from DTSA to verify that technical data associated with the contract was
   export controlled. (DTSA frequently performs similar reviews for the Department of
   State.) DTSA concluded that the technical data was, at a minimum, export controlled by
   the Department of Commerce and possibly by the Department of State, depending on the
   use of the end product. Because of the procedural weaknesses, the contractor
   inappropriately provided at least two foreign national employees with access to export-
   controlled technology. One employee was a citizen of the People’s Republic of China
   and the other was a citizen of India. We are coordinating with our Office of
   Investigations on this matter.

   Contractor 4, who employed only U.S. citizens, did not have a physical security plan and
   the only physical security procedure we identified was that they locked the front doors at
   the end of the business day. Technical data associated with the contract we reviewed
   involved the development of polymers that could potentially be used by the military for
   body armor, which is technology controlled under ITAR. However, the contractor did
   not have badges to identify employees and had no access restrictions to locations that
   contained the potentially export-controlled technology. Although the contractor
   employed only U.S. citizens, the contractor did not have procedures for determining the
   nationality of visitors and did not have procedures for documenting the presence of
   foreign visitors.


Awareness of Export-Control Regulations

   NASA procurement personnel and small business contractors were not always aware that
   export-controlled items were involved in contract performance or aware of export-control


REPORT NO. IG-09-018                                                                             7
                                                                                        RESULTS



    regulations intended to protect critical and sensitive technologies from being improperly
    released to foreign nationals and countries of concern. Specifically, we determined that
    NASA procurement personnel and small business contractors did not properly identify
    potentially export-controlled information in the contracts we reviewed. Additionally, the
    small business contractors were also not aware of the ITAR requirement to register with
    DDTC when engaged in the manufacture or export of export-controlled technology.
    NASA provides outreach to educate some NASA personnel and contractors about export-
    control issues relevant to NASA; however, NASA’s export-control outreach efforts did
    not include small business procurement personnel.

    Identification of Export-Control Technology. Each of the small business contracts we
    reviewed included the NASA Federal Acquisition Regulation (FAR) Supplement (NFS)
    export-control clause 1852.225-70, Export Licenses, which informs contractors of their
    responsibility to comply with export laws and regulations. However, the export-control
    clause does not necessarily indicate that the contract involves export-controlled
    technology because NFS section 1825.1103-70 requires the export-control clause in all
    NASA solicitations and contracts, except in contracts with foreign entities. Further, the
    export-control clause does not specifically inform contactors of the requirement to
    register with DDTC when engaged in the manufacture or export of export-controlled
    items, nor does it require contractors to consult with the Department of State regarding
    any questions relating to the ITAR or with the Department of Commerce regarding any
    questions related to the EAR.

    For the small business contracts we selected for review, contract performance involved
    technology that was potentially export-controlled. We asked both the contracting officer
    technical representatives (COTRs) and the small business contractors whether their
    contract involved potentially export-controlled technology: of the five COTRs that
    managed the contracts for the four contractors we reviewed, two said no, one said yes,
    and two were not sure; of the four small business contractors, three said no and one was
    not sure. For one contract, the COTR said the contract involved export-controlled
    technology, while the small business contractor said that it did not. We found no
    evidence that the contracting officer had informed the small business contractor that the
    contract involved export-controlled technology.

    DDTC Registration. None of the four small business contractors we reviewed had
    registered with DDTC, despite that each of the small business contracts involved
    potentially export-controlled products or technical data. The products involved in
    performance of the small business contracts included optical sensors to detect leaks
    during launch operations, special polymers for use on spacecraft and military body
    armor, launch range surveillance equipment, and cameras that track explosion debris.
    These products, and their related technical data, are categorized as export-controlled
    products by either ITAR or EAR. Although three of the four small business contractors
    did not know their contract involved export-controlled technology, in addition to not
    registering, none of the small business contractors were aware of the registration
    requirement and did not know how to register with DDTC.


8                                                                         REPORT NO. IG-09-018
RESULTS



   In March 2009, Department of Defense (DoD) developed a draft final rule to amend the
   Defense Federal Acquisition Regulation Supplement and establish an export-control
   clause to ensure DoD contractors complied with export-control laws and regulations and
   to prevent unauthorized disclosure of export-controlled information and technology.
   DoD coordinated with the Departments of State, Commerce, and Justice in developing
   the clause. Responsible personnel with the Department of State informed us that the
   export-control clause was developed to emphasize the importance of the requirement for
   contractors to register with the DDTC, and to direct contractors to contact either the
   Departments of State or Commerce regarding any questions related to either the ITAR or
   EAR.

   It is in NASA’s best interests to monitor export-control rule developments in other
   Federal agencies and look for opportunities to improve both NASA contracting officers’
   and small business contractors’ awareness of export regulations. DoD is coordinating
   with the Departments of State, Commerce, and Justice to ensure that the Defense Federal
   Acquisition Regulation Supplement rule is in compliance with other Federal regulations.
   Adopting provisions in the DoD draft final rule could help NASA improve contactors’
   awareness of export-control regulations. NASA should be aware of the latest changes to
   assure NASA policy is aligned with the best practices.

   Office of External Relations Outreach Efforts. NASA’s Office of External Relations
   has developed multiple outreach efforts to educate NASA personnel and increase
   awareness of export-control issues relevant to NASA. The Office of External Relations
   sends to selected personnel throughout each Mission Directorate and Center, via e-mail,
   a weekly activity report that includes export-control issues and activities. The Export
   Control and Interagency Liaison Division, within the Office of External Relations,
   annually holds an export-control conference that is attended by NASA personnel from
   every Center, and they frequently send e-mails addressing specific export-control issues
   to personnel within the NASA Export Control Program at Headquarters and each NASA
   Center. According to the Export Control and Interagency Liaison Division, in 2008,
   personnel with the NASA Export Control Program at Headquarters and the Centers
   provided training to 3,200 NASA employees and on-site contractors. Additionally,
   NASA Export Control Program personnel frequently accept invitations at non-NASA
   events and conferences that are attended by U.S. companies. We acknowledge the
   extensive efforts undertaken by the Office of External Relations to increase the
   awareness of export-control issues. However, most of the outreach efforts are directed to
   Center export-control personnel and do not target the SBIR/STTR Program Management
   Office staff or procurement personnel, or small business contractors.

   In a 2006 Government Accountability Office (GAO) report, “Agencies Should Assess
   Vulnerabilities and Improve Guidance for Protecting Export-Controlled Information at
   Companies” (GAO-07-69, December 2006), it was stated that training and outreach by
   Government agencies was particularly important because smaller businesses working in
   advanced technology areas were not as aware of the extent of their responsibilities to
   protect export-controlled information. GAO also found that, while the Departments of


REPORT NO. IG-09-018                                                                           9
                                                                                            RESULTS



     State and Commerce provide export-control training to companies, the Departments do
     not strategically target companies where the greatest risk of violations of the export
     regulations may exist. GAO recommended that the Department of State improve its
     oversight of export-controlled information at companies by strategically assessing
     potential vulnerabilities in the company’s protection of export-controlled information.

     The results of our review indicate that SBIR/STTR Program Management Office
     contractors are at a higher risk than larger corporations of improperly releasing export-
     controlled technology. Given the lack of export-control awareness we identified with
     SBIR/STTR procurement personnel and small business contractors, we believe that
     expanding outreach efforts to NASA personnel involved in the SBIR/STTR procurement
     process and small business contractors would increase export-control awareness among
     NASA personnel and reduce the risk of small business contractors violating export-
     control regulations.


NASA Oversight and Monitoring of Small Business Contractor
 Compliance with Export-Control Guidance

     Through interviews with contracting officers, COTRs, and the Program Managers for the
     small business contracts, we determined that procurement officials do not monitor
     technology transfers, i.e. exports, as part of their contract administration duties. Even
     when the COTR said yes, the contract contained export-controlled technology, the COTR
     informed us that his oversight did not include monitoring the export-control compliance
     of the small business contractor.

     Each of the small business contracts we reviewed contained NFS clause 1852.223-75,
     Major Breach of Safety or Security, which states that “a major breach of security may
     constitute a breach of contract that entitles the Government to exercise any of its rights
     and remedies applicable to material parts of this contract, including termination for
     default. A major breach of security may occur on or off Government installation, but
     must be related directly to the work on the contract.” The clause defines a major breach
     of security as an act or omission by the contractor that results in compromise or illegal
     technology transfer of export-controlled technology. The clause also states that in the
     event of a major breach of safety or security, the contractor shall report the breach to the
     contracting officer. This clause is required in all solicitations and contracts with
     estimated values of $500,000 or more, unless waived at a level above the contracting
     officer position with the concurrence of the project manager and the installation
     official(s) responsible for matters of security, export-control, safety, and occupational
     health.

     Contracting officers should monitor safety and security, to include illegal technology
     transfers, as part of their contract administration duties. However, none of the small
     business contracts we reviewed included safety or security reporting as a deliverable,
     even though the contracts involved potentially export-controlled technology. Based on


10                                                                           REPORT NO. IG-09-018
RESULTS



   the contractor’s reporting requirements of NFS clause 1852.223-75, contracting officers
   could increase oversight and monitoring of contractor compliance with export regulations
   by requiring contractors to report major safety and security breaches, to include actual or
   suspected illegal technology transfers, as a deliverable. By requiring reporting on actual
   or suspected illegal technology transfers, NASA will have documented assurance from
   contractors that they are protecting sensitive NASA technology from inappropriate
   transfers to foreign nationals or countries of concern.


Conclusion

   Space systems and aeronautics technologies are frequently targeted for theft by foreign
   entities. The unauthorized disclosure of certain information may enable a foreign
   country or adversary to gain an advantage militarily. NASA’s programs and projects in
   many cases involve research and technology that must be protected, and that work is
   frequently performed for NASA by contractors. Small business contractors usually enter
   into contracts with NASA to develop technology and products to satisfy a need that has
   been identified by NASA. Although NASA is not responsible for contractors’ export
   compliance in the execution of contracted work, NASA has a vested interest in ensuring
   the companies they contract with comply with export-control laws. Otherwise, NASA’s
   ability to accomplish their mission could be put in jeopardy if fines or debarment
   seriously impedes a contractor’s ability to provide supplies or services to NASA. We
   believe that NASA can reduce the small business contractors’ risk of violating export-
   control procedures by informing the contractors when a contract contains technology that
   is potentially export-controlled, and monitoring contractors’ compliance with export-
   control laws and procedures.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

      1. The Assistant Administrator for Procurement should:

          a. coordinate with the Department of State to monitor the modifications to the
             DoD draft final rule intended to increase contractor awareness of their export-
             control responsibilities, and, if required, amend the NASA FAR Supplement
             (NFS) to align with other Federal agencies best practices.

          Management’s Response. The Assistant Administrator for Procurement
          concurred and stated that the Office of Procurement will monitor the
          modifications to the DoD draft final rule and, if required and appropriate, amend
          the NASA FAR Supplement to align with other Federal agencies best practices.




REPORT NO. IG-09-018                                                                             11
                                                                                          RESULTS



         Evaluation of Management’s Response. Management’s proposed action is
         responsive. The recommendation is resolved and will be closed upon completion
         and verification of management’s corrective action.

        b. require contracting officers to monitor and oversee contractors’ compliance
           with export-control regulations by

            i. requiring contractors with contracts that contain export-controlled
               technology to provide the contracting officers with an export compliance
               plan at the time of contract award, and

            ii. adding the reporting of major safety and security, to include actual or
                suspected, illegal technology transfers as a contract deliverable on
                contracts that involve export-control technology.

        Management’s Response. The Assistant Administrator for Procurement partially
        concurred and agreed that SBIR and STTR contractors should be aware of and
        comply with export control regulations. However, the Assistant Administrator for
        Procurement believed that updating the solicitation requirements for small
        business contractors would be a more appropriate way of increasing SBIR and
        STTR contractor awareness when compared to requiring the delivery of an export
        control compliance plan. The Assistant Administrator for Procurement stated that
        the SBIR and STTR solicitations will direct contractors to contact the Department
        of State for questions related to the International Traffic in Arms Regulations and
        to contact the Department of Commerce for questions related to the Export
        Administration Regulations. The solicitations will also remind contractors of the
        requirement to report major breaches of safety and security, to include illegal
        technology transfers, in accordance with NFS clause 1852.223-75 Major Breach of
        Safety and Security; direct contractors to comply with specific export control
        requirements such as registering with the Directorate of Defense Trade Controls,
        obtaining applicable technical assistance agreements, and requesting commodity
        jurisdictions from the Department of State.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to the intent of the recommendation; however, the recommendation
        will remain open until we evaluate the effectiveness of the efforts to increase
        contractor awareness. At that time, we will determine whether the actions taken
        by the Office of Procurement have resulted in an increase in the number of SBIR
        and STTR contractors that are in compliance with export control regulations.

     2. The Assistant Administrator for External Relations should expand current export-
        control outreach efforts to NASA SBIR/STTR Program Management Office
        personnel, procurement personnel involved in the administration of SBIR/STTR
        contracts, and small business contractors.




12                                                                       REPORT NO. IG-09-018
RESULTS



          Management’s Response. The Assistant Administrator for External Relations
          concurred and stated that the Office of External Relations will provide briefings on
          NASA compliance to the SBIR/STTR contractor community and will work with
          the Office of Procurement and the SBIR/STTR Program management Office to
          schedule export control training. Additionally, the Office of External Relations
          plans to provide the Department of State with a list of NASA small business
          contractors for their outreach efforts.

          Evaluation of Management’s Response. Management’s proposed action is
          responsive. The recommendation is resolved and will be closed upon completion
          and verification of management’s corrective action.




REPORT NO. IG-09-018                                                                             13
APPENDIXES




                                                                                            APPENDIX A

Scope and Methodology

   We performed this audit from November 2007 through May 2009 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We interviewed NASA procurement officers, contracting officers, COTRs, the NASA
   Export-control Administrator, Center Export-Control Administrators, and Program
   Managers to obtain an understanding of the procedures in place at NASA for controlling
   the access foreign nationals have to export-controlled technology at contractor locations.
   We reviewed relevant NASA criteria, the Federal Acquisition Regulation, the NASA
   Federal Acquisition Regulation Supplement, Export Administration Regulations, and the
   International Traffic in Arms Regulations. We also reviewed export compliance program
   guidelines issued by the Department of State and examined industry best practices.

   We selected contracts that appear to contain critical technologies and technical
   information relevant to NASA based on the North American Industry Classification
   System (NAICS) codes. 6 By querying the Federal Procurement Data System-Next
   Generation, we identified the universe of active contracts performed off-site (i.e., not at a
   NASA Center or facility) and likely to involve export-controlled technology. We
   identified potentially export-controlled technology using the NAICS codes related to
   space vehicles, guides missiles, and related equipment. We systematically selected active
   contracts with a total award value greater than $500,000 that appeared to contain export-
   controlled technology based on the following NAICS codes:
         • 336414        Guided Missile and Space Vehicle Manufacturing
         • 336415        Guided Missile and Space Vehicle Propulsion Unit and Propulsion Unit
                         Parts Manufacturing
         • 336419        Other Guided Missile and Space Vehicle Parts and Auxiliary Equipment
                         Manufacturing
         • 927110        Space Research and Technology

   6
       The Office of Management and Budget (OMB) developed the North American Industry Classification
       System (NAICS) as the standard for use by Federal statistical agencies in classifying business
       establishments for the collection, analysis, and publication of statistical data related to the business
       economy of the U.S. A business establishment is assigned one NAICS code, based on its primary
       business activity.



REPORT NO. IG-09-018                                                                                              15
                                                                                      APPENDIX A



     We focused on contracts administered by Goddard, Marshall, and Kennedy based on both
     the number and award value of contracts at those Centers. We also limited the places of
     performance to California, Massachusetts, and Florida. We selected California and
     Massachusetts because these states have largest number of contracts, and we included
     Florida because, based on our query of the Federal Procurement Data System-Next
     Generation, there are a significant number of contracts and several high-dollar awards.
     Using this methodology, we identified 15 contracts that appeared to contain export-
     controlled technology. We obtained and reviewed the 15 contracts to determine whether
     they contained export-controlled technology based on ITAR and NASA guidance. Based
     on our review and consultation with the NASA export-control personnel, we concluded
     that 2 contracts did not contain export-controlled technology. As a result, we eliminated
     these contracts, leaving 13 contracts within the scope of the audit.

     Use of Computer-Processed Data. We used computer-processed data to select the
     contracts but did not use computer-processed data to evaluate the data within those
     contracts.

     Review of Internal Controls. We contacted responsible export-control and contracting
     personnel at each of the contractor locations to obtain an initial understanding of their
     procedures for protecting export-controlled technology. We also visited each of the
     contractor locations for the 13 contracts we reviewed and tested their procedures for
     controlling the access foreign nationals have to export-controlled technology.
     Specifically, we reviewed the contractor’s export-control program, observed and tested
     the procedures for controlling physical access and IT access, and reviewed the
     procedures the contractors had in place to verify the citizenship of all employees. We
     also obtained and reviewed the contractor’s technical assistance agreements, Directorate
     of Defense Trade Controls registration number, and export licenses and exceptions. As
     stated in the report, we identified internal control weaknesses with NASA’s procedures
     for overseeing and monitoring small business contractor transfers of potentially critical
     technology and technical information to foreign nationals and countries of concern need
     improvement. We also referred one small business contract to the OIG Office of
     Investigations to determine whether an export-control violation had occurred.




16                                                                         REPORT NO. IG-09-018
APPENDIX A



Prior Coverage

   During the last 5 years, the Government Accountability Office (GAO) and the NASA
   Office of Inspector General (OIG) have issued four reports of particular relevance to the
   subject of this report. Unrestricted reports can be accessed over the Internet at
   http://www.gao.gov (GAO) and http://oig.nasa.gov/audits/reports/FY09 (NASA).

   Government Accountability Office

   “Agencies Should Assess Vulnerabilities and Improve Guidance for Protecting Export-
   Controlled Information at Universities” (GAO-07-70, December 2006)

   “Agencies Should Assess Vulnerabilities and Improve Guidance for Protecting Export-
   Controlled Information at Companies” (GAO-07-69, December 2006)

   National Aeronautics and Space Administration

   “NASA Can Improve Its Mitigation of Risks Associated with International Agreements
   With Japan for Science Projects” (IG-06-020, September 2006)

   “Final Memorandum on NASA’s Policies for Protecting Technology Exported to Foreign
   Entities” (IG-06-006, March 2006)




REPORT NO. IG-09-018                                                                           17
                      APPENDIX B




     MANAGEMENT COMMENTS




18           REPORT NO. IG-09-018
APPENDIX B




REPORT NO. IG-09-018   19
              APPENDIX B




20   REPORT NO. IG-09-018
APPENDIX C




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Deputy Administrator
   Chief of Staff
   Assistant Administrator for Procurement
   Assistant Administrator for External Relations

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
   Government Accountability Office
      Director, Defense, State, and NASA Financial Management, Office of Financial
         Management and Assurance
      Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Space, Aeronautics, and Related Sciences
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Management, Organization, and Procurement
   House Committee on Science and Technology
      Subcommittee on Investigations and Oversight
      Subcommittee on Space and Aeronautics




REPORT NO. IG-09-018                                                                 21
Major Contributors to the Report:
   Raymond Tolomeo, Director, Space Operations (Acting)
   G. Paul Johnson, Project Manager
   Mark J. Benson, Auditor
   Julia K. Eggert, Management and Program Analyst
   James E. Richards, Auditor
   Janet Overton, Editor




REPORT NO. IG-09-018                                      23
                                                                                         JULY 14, 2009
                                                                        REPORT No. IG-09-018




                                                                                  OFFICE OF AUDITS

                                                                  OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Quality Assurance
Director, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
